BECKER GALLAGHER
Briefs

and

, Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Motion for
Leave to File and Brief ofAmicus Curiae International
Municipal Lawyers Association in Support of Petition
for Writ of Certiorari in 21-299, Montgomery County,
Maryland v. Yasmin Reyazuddin, were sent via Next
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Next Day Service and e-mail to the
following parties listed below, this 27th day of
September, 2021:
Erin Jeanne Ashbarry
Office of the County Attorney for
Montgomery County, Maryland
101 Monroe Street, Third Floor
Rockville, MD 20850
(240) 777-6700
erin.ashbarry@montgomerycountymd.gov

Counsel for Petitioner
Joseph B. Espo
Brown, Goldstein & Levy, LLP
120 East Baltimore Street, Suite 2500
Baltimore, MD 21202
(410) 962-1030
jbe@browngold.com

Counsel for Respondent

(800) 890.5001

8790 Governor's Hill Drive
Suite l 02

www.beckergallagher.com

Cincinnati, Ohio 45249

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Daniel E. Peterson
Parker Poe Adams & Bernstein LLP
620 South Tryon St., Ste. 800
Charlotte, NC 28202
(704) 372-9000
danielpeterson@parkerpoe.com
Charles W. Thompson, Jr.
Amanda Kellar Karras
Counsel of Record
International Municipal Lawyers Association
51 Monroe Street, Suite 404
Rockville, MD 20850
(202) 466-5424
akarras@imla.org

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 27, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

Nota~

~~ ~ ct-f-, dOd-(
'

li~· . ~

[seal]

JOHN D. GALLAGHER
Notary Public. State d Ohio

Mv Commission Expires
February 14, 2C:~'3

